OIG Investigative Reports, Former Campaign Manager for Linda Schrenko Sentenced for Attempted Witness Tampering
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE
August 24, 2006
http://www.usdoj.gov/usao/gan/
U. S. Attorney David E. Nahmias
Northern District of Georgia
75 Spring Street, S.W. - Suite 600
Atlanta, GA 30303-3309
Contact: Patrick Crosby
Tel: 404-581-6016
Fax: 404-581-6160
Former Campaign Manager for Linda Schrenko Sentenced for Attempted Witness Tampering
Atlanta, GA —  RICHARD LEONARD, 44, of Augusta, Georgia, was sentenced
today by United States District Judge Clarence Cooper to one year of probation
and a fine of $3,000 for attempted witness tampering in an effort to dissuade
an individual from providing truthful information to federal law enforcement
agents regarding the source of cash contributions to the gubernatorial campaign
of Linda Schrenko in 2002. LEONARD also was ordered to pay a special assessment
of $25, and to perform 75 hours of community service.
LEONARD, the former manager of Linda Schrenko's 2002 gubernatorial campaign,
pleaded guilty on December 21, 2004, to the offense of attempted witness tampering
and cooperated with federal authorities in the investigation and prosecution
of Schrenko, and her co-conspirators, Merle Temple and Stephan Botes. Schrenko
and Temple pleaded guilty to fraud charges, and Botes was convicted of fraud
charges following a jury trial earlier this year.
United States Attorney David E. Nahmias said about the case, "Federal agents
expect and federal law requires that citizens interviewed during criminal investigations
tell the truth and not attempt to discourage other citizens from telling the
truth to investigators. If they do attempt to tamper with witnesses, they will
face prosecution. This sentence reflects that Mr. Leonard accepted responsibility
for his conduct and cooperated in the prosecution of others who were more culpable."
According to Nahmias, the plea agreement and evidence in the case: LEONARD
was the campaign manager of the Linda Schrenko gubernatorial campaign through
the summer of 2002. In August 2004, during a recorded telephone call, LEONARD
attempted to harass one of the individuals whom Leonard previously had recruited
during the summer of 2002 to cash "focus group" checks, in the amount of $590
each, and return the proceeds from those cashed checks as contributions to the
Schrenko campaign. In that recorded conversation, LEONARD requested that individual
not to make any mention of the Schrenko campaign during any interview with federal
investigators because that would advance the investigation of sources of funds
for the Schrenko campaign. LEONARD further requested that individual to falsely
state to federal investigators that the individual had been paid for participating
in a focus group. In fact, claiming that the $590 checks were payments for "focus
group" participation was a fabrication and no focus group ever was held.
Schrenko's co-defendants, Merle Temple and Stephan Botes, are scheduled to
be sentenced by Judge Cooper on September 11, 2006.
The case was investigated by Special Agents of the U.S. Department of Education,
Office of the Inspector General, and the FBI.
Assistant United States Attorneys Russell G. Vineyard and Daniel A. Caldwell
are prosecuting the case.
For further information please contact David E. Nahmias, United States Attorney
or F. Gentry Shelnutt, Chief, Criminal Division, through Patrick Crosby, Public
Affairs Officer, U.S. Attorney's Office, at (404) 581-6016. The Internet address
for the HomePage for the U.S. Attorney's Office for the Northern District of
Georgia is www.usdoj.gov/usao/gan.
Top
Printable view
Share this page
Last Modified: 09/08/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov